         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report



       EPA Needs to Conduct
       Environmental Justice Reviews of
       Its Programs, Policies, and
       Activities
       Report No. 2006-P-00034


       September 18, 2006
Report Contributors:	             Lauretta Ansah
                                  Erin Barnes-Weaver
                                  Dan Carroll
                                  Jeffrey Harris
                                  Kalpana Ramakrishnan
                                  Steve Weber




Abbreviations

EJSEAT       Environmental Justice Smart Enforcement Assessment Tool
EPA          U.S. Environmental Protection Agency
OAR          Office of Air and Radiation
OECA         Office of Enforcement and Compliance Assurance
OEJ          Office of Environmental Justice
OIG          Office of Inspector General




Cover Photo: Housing impacted by industry. Photo from EPA Region 2 Environmental Justice
             Website: http://www.epa.gov/region2/ej/.
                         U.S. Environmental Protection Agency                                           2006-P-00034

                         Office of Inspector General                                               September 18, 2006





                         At a Glance 

                                                                        Catalyst for Improving the Environment

Why We Did This Review               EPA Needs to Conduct Environmental Justice
We conducted this review to
                                     Reviews of Its Programs, Policies, and Activities
determine whether the U.S.
Environmental Protection              What We Found
Agency’s (EPA’s) program and
regional offices performed           Our survey results showed that EPA senior management has not sufficiently
environmental justice reviews of     directed program and regional offices to conduct environment justice reviews
their programs, policies, and        in accordance with Executive Order 12898. Consequently, the majority of
activities as required by            respondents reported their programs or offices have not performed
Executive Order 12898, and           environmental justice reviews. Though some offices may not be subject to an
whether they needed additional       environmental justice review, the respondents expressed a need for further
guidance.
                                     guidance to conduct reviews, including protocols, a framework, or additional
Background                           directions. Until these program and regional offices perform environmental
                                     justice reviews, the Agency cannot determine whether its programs cause
Environmental justice reviews        disproportionately high and adverse human health or environmental effects on
seek to identify and address         minority and low-income populations.
disproportionately high and
adverse human health or               What We Recommend
environmental effects on minority
and low-income populations.          We recommended that the Deputy Administrator:
The 1994 Executive Order 12898,
Federal Action to Address            (1) Require the Agency’s program and regional offices to identify which
Environmental Justice in                 programs, policies, and activities need environmental justice reviews and
Minority Populations and Low-            require these offices to establish a plan to complete the necessary reviews.
Income Populations, directs
agencies to make environmental       (2)	 Ensure that environmental justice reviews determine whether the
justice part of their mission by          programs, policies, and activities may have a disproportionately high and
reviewing the effects of their            adverse health or environmental impact on minority and low-income
programs on minority and low-             populations.
income populations.
                                     (3) Require each program and regional office to develop, with the assistance
                                         of the Office of Environmental Justice, specific environmental justice
For further information,                 review guidance, which includes protocols, a framework, or directions for
contact our Office of                    conducting environmental justice reviews.
Congressional and Public
Liaison at (202) 566-2391.
                                     (4) Designate a responsible office to (a) compile the results of environmental
To view the full report, click on        justice reviews, and (b) recommend appropriate actions to review findings
the following link:                      and make recommendations to the decisionmaking office’s senior
www.epa.gov/oig/reports/2006/            leadership.
20060918-2006-P-00034.pdf
                                     The Agency accepted our recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL



                                       September 18, 2006

MEMORANDUM

SUBJECT:               EPA Needs to Conduct Environmental Justice Reviews of Its
                       Programs, Policies, and Activities
                       Report No. 2006-P-00034

TO:                    Marcus C. Peacock
                       Deputy Administrator


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $157,433.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at (202) 566-0847 or
roderick.bill@epa.gov, or Jeffrey Harris, Product Line Director for Cross Media Issues, at
(202) 566-0831 or harris.jeffrey@epa.gov.


                                                     Sincerely,



                                                     Bill A. Roderick
                                                     Acting Inspector General
EPA Needs to Conduct Environmental Justice Reviews of Its Programs, Policies, and Activities



                                   Table of Contents 


Chapters
 1 	 Introduction ..............................................................................................................       1        


                 Purpose ..........................................................................................................    1            

                 Background ....................................................................................................       1            

                 Scope and Methodology.................................................................................                3            


 2 	 EPA Has Not Consistently Performed Environmental Justice Reviews of 

     Programs, Policies, and Activities ........................................................................                       5        


                 Program and Regional Offices Have Not Routinely Performed
                    Environmental Justice Reviews................................................................                      5

                 Need for Protocols, a Framework, or Additional Directions............................                                 6

                 Recommendations .........................................................................................             7            

                 Agency Response and OIG Evaluation .........................................................                          8


 Status of Recommendations and Potential Monetary Benefits.................................                                            9        




Appendices

 A Regional and Program Office Survey Respondents .............................................                                       10    


 B Agency Response ....................................................................................................               11    


 C OIG’s Comments on Agency’s Response..............................................................                                  16


 D Distribution ...............................................................................................................       17    

                               Chapter 1
                                Introduction

Purpose
          The objective of this evaluation was to determine whether U.S. Environmental
          Protection Agency (EPA) program and regional offices have performed
          environmental justice reviews of their programs, policies, and activities as
          required by Executive Order 12898. The evaluation specifically sought to answer
          the following questions:

             •	 Has there been clear direction from Agency senior management to perform
                environmental justice reviews of EPA programs, policies, and activities?

             •	 Has the Agency performed environmental justice reviews?

             •	 Does the Agency have adequate guidance to conduct these reviews or is
                there a need for additional directions or protocols?

Background
          Executive Order 12898, Federal Actions to Address Environmental Justice in
          Minority Populations and Low-Income Populations, was signed on February 11,
          1994. The Executive Order directs all Federal agencies to implement
          environmental justice into its programs as follows:

             To the greatest extent practicable and permitted by law … each Federal
             agency shall make achieving environmental justice part of its mission by
             identifying and addressing, as appropriate, disproportionately high and
             adverse human health or environmental effects of its programs, policies, and
             activities on minority populations and low-income populations in the United
             States.

          In August 2001, the EPA Administrator issued a memorandum reaffirming the
          Agency’s commitment to environmental justice. This memorandum directed EPA
          to conduct its programs, policies, and activities that substantially affect human
          health and the environment in a manner that ensures the fair treatment of all
          people, including minority and low-income populations. In addition, the
          memorandum directed EPA to improve its research and data collection relating to
          the health of all people, including minority and low-income populations.

          Four years later, on November 4, 2005, the EPA Administrator issued another
          memorandum reaffirming the Agency’s commitment to environmental justice and


                                          1

                directing Agency officials “to implement [EPA] programs and activities to ensure
                that they do not adversely affect populations with critical environmental and
                public health issues, including minority and low-income communities.” The 2005
                memorandum also directed “EPA to more fully and effectively integrate
                environmental justice considerations into its programs, policies, and activities”
                and “to incorporate environmental justice considerations into its planning and
                budgeting processes.”

                However, neither the 2001 nor the 2005 memoranda specifically directed program
                and regional offices to assess whether any of their programs, policies, or activities
                had disproportionately high and adverse human health or environmental effects on
                minority and low-income populations.

                In response to our 2004 report on environmental justice,1 the Assistant
                Administrator of the Office of Enforcement and Compliance Assurance (OECA)
                responded in part as follows:

                    Executive Order 12898, rather, requires EPA to review all of its programs,
                    policies and activities in order to identify and address the disproportionately
                    high and adverse human health or environmental effects … on minority
                    populations and low-income populations. This mandate is based on the plain
                    language of the Executive Order and is supported by the accompanying
                    Presidential Memorandum.

                The Office of Environmental Justice (OEJ) advised us that, since our 2004
                environmental justice report, the Agency has also:
                   •	 Integrated environmental justice into each goal of the Agency’s Draft
                       Strategic Plan;
                   •	 Issued the Toolkit for Assessing Potential Allegations of Environmental
                       Injustice and the Environmental Justice Smart Enforcement Assessment
                       Tool;
                   •	 Linked its regional and program office environmental justice action plans
                       to the Agency’s Strategic Plan, and developed new action plans for each
                       program and regional office;
                   •	 Established the OEJ as an ex officio member of the Agency’s Regulatory
                       Steering Committee to help ensure that environmental justice
                       considerations are taken into account during the rulemaking process;
                   •	 Developed in-person and on-line training in the “fundamentals of
                       environmental justice”; and
                   •	 Developed in-person and on-line training for EPA staff responsible for
                       writing permits under the Resource Conservation and Recovery Act and
                       the Clean Air Act.


1
 EPA OIG Report No. 2004-P-00007, EPA Needs to Consistently Implement the Intent of the Executive Order on
Environmental Justice, March 2004.


                                                     2

         OEJ provided us with the following definitions of the types of environmental
         justice reviews the Agency performs:

            •	 “Environmental justice assessments” are comprehensive analyses of
               potential disproportionately high and adverse impacts within a given
               geographic area, or that may arise from a proposed activity.

            •	 “Environmental justice reviews” or “environmental justice program
               evaluations” address potential disproportionately high and adverse impacts
               resulting from a program, policy, or set of activities on all impacted
               communities, including minority and/or low-income communities.

         For this evaluation, we sought to identify any reviews of the potential to cause
         disproportionately high and adverse impacts on minority and low-income
         populations regardless of how program and regional offices labeled the reviews.
         Therefore, this document uses the terms “analysis,” “review,” and “assessment”
         interchangeably.

Scope and Methodology
         To determine the direction, frequency, and guidance for environmental justice
         reviews, we met with OECA, OEJ, and Office of Air and Radiation (OAR)
         representatives. We then conducted an Agency-wide survey of each of the
         Deputy Assistant Administrators in the Agency’s 13 program offices and each of
         the 10 Deputy Regional Administrators on their experience conducting
         environmental justice reviews of their programs, policies, and activities. We also
         asked them to describe their satisfaction with available guidance and instructions
         for conducting these reviews, and whether they needed additional directions or
         protocols. We selected this population after discussion with OECA and OEJ
         suggested that we would likely receive a more complete picture of environmental
         justice reviews and assessments if the Deputy Regional Administrators and
         Deputy Assistant Administrators serve as our points of contact.

         We received 15 completed surveys: 5 Deputy Regional Administrators responded
         and 5 program offices responded. OAR provided responses from five of its
         divisions, and the Office of the Administrator provided responses from two of its
         offices. We did not design our survey to draw inferences or project results.
         Rather we sought to obtain descriptive information on implementing
         environmental justice at EPA. Our response rate was 43 percent (10 of 23
         offices) which is high for a voluntary survey. While the regional and program
         offices that responded may not represent all regional and program offices at EPA,
         we received responses from those offices directly responsible for environmental
         programs (e.g., OAR, Office of Water, Office of Solid Waste and Emergency
         Response), as opposed to offices that function in more of a support capacity (e.g.,
         Office of the Chief Financial Officer, Office of General Counsel). We considered



                                          3

all responses when summarizing results in order to use the most information
available to us. See Appendix A for a list of offices that responded to our survey.

This evaluation began on January 9, 2006, and field work ended on May 18, 2006.
We conducted the review in accordance with Government Auditing Standards.




                                 4

                                Chapter 2
EPA Has Not Consistently Performed Environmental
Justice Reviews of Programs, Policies, and Activities

          Our survey results showed that EPA program and regional offices have not
          performed environmental justice reviews in accordance with Executive Order
          12898. Respondents stated that EPA senior management has not sufficiently
          directed program and regional offices to conduct environment justice reviews.
          Also, respondents expressed a need for further guidance on conducting these
          reviews, including protocols, a framework, or additional directions. Until these
          program and regional offices perform reviews, the Agency cannot determine
          whether its programs cause disproportionately high and adverse human health or
          environmental effects on minority and low-income populations.

Program and Regional Offices Have Not Routinely Performed
Environmental Justice Reviews
          Although Executive Order 12898 requires environmental justice reviews, EPA
          program and regional offices have not consistently performed them. In our
          survey of program and regional office directors, 9 of the 15 respondents (60
          percent) had not performed reviews as required by the Executive Order. Reasons
          for not performing these reviews included the absence of a specific directive as
          well as confusion regarding how to perform the reviews.

          In our survey, 13 of the 15 respondents (87 percent) stated that EPA management
          had not requested them to perform reviews of the Agency’s programs, policies,
          and activities as required by the Executive Order. Section 6.601 of the Executive
          Order states that the Office of the Administrator is responsible for ensuring that
          internal reviews are conducted to demonstrate compliance with the Executive
          Order.

          One program office respondent said:

             Framework, protocols, or further directions would help a program office
             scope an environmental justice review. Program Offices would find useful
             and relevant a framework, etc., that is flexible and weighed against existing
             commitments and programs that compete for program resources.

          Other program offices responded that the nature of their programs does not lend
          themselves to reviewing impacts on minority and low-income populations and, as
          a result, they believe their programs are not subject to Executive Order 12898
          requirements. However, the Agency has not yet determined the programs,
          policies, and activities subject to the Executive Order’s analysis.


                                           5

          EPA has focused on integrating environmental justice into its programs, policies,
          and activities through developing action plans from each of the program and
          regional offices, and through other activities as described in Chapter 1. Action
          plans provide staff with a strategic instrument to ensure environmental justice
          considerations are integrated into all Agency activities. In some cases, the action
          plans provide for assessment and performance measurement.

          For example, in 2003, OEJ initiated the Collaborative Problem-Solving
          Cooperative Agreement Grants Program. This program provides $100,000
          cooperative agreements to affected community-based organizations to help find
          practical solutions to environmental concerns. The Agency awarded $3,000,000
          in Fiscal Year 2004 for these cooperative agreements to 30 projects. The Agency
          also provides financial assistance to external stakeholders through the
          Environmental Justice Small Grants Program. In Fiscal Year 2004, EPA
          awarded 17 grants totaling $423,454 to community-based organizations focusing
          primarily on environmental and/or public health problems of the affected
          community.

Need for Protocols, a Framework, or Additional Directions
          Program and regional offices lack clear guidance to follow when conducting
          environmental justice reviews. The majority of our survey respondents (12 of 15,
          or 80 percent) stated they would find protocols, a framework, or additional
          directions useful for conducting environmental justice reviews (see Figure 1).
          One of the survey respondents said:

             Given there isn’t a common understanding of what a [environmental justice]
             review is, it was difficult to answer “yes” or “no” to questions that really
             required more explanation. … We advocate the nationwide Agency use of a
             consistent methodology for conducting [environmental justice] reviews.

                  Figure 1. Summary of Survey Respondents’ Need for Additional Guidance


                        Usefulness of Protocols, Frameworks, or Further
                                      Directions from EPA


                         Very Us eful

               Somewhat Very Us eful

                              Us eful

                   Som ewhat Us eful

                          Not Us eful

                                        0   1      2       3      4       5      6        7




                                            6

        No Agency-wide guidance exists on environmental justice program or policy
        review. However, the Agency issued a Toolkit for Assessing Potential
        Allegations of Environmental Injustice on November 3, 2004. OECA issued the
        Toolkit given its role as the National Program Manager for Environmental Justice.
        Because no single office has authority to establish binding environmental justice
        policy, each national program office was required to approve the document prior
        to its issuance. OEJ stated, “The Toolkit represents current Agency policy with
        respect to environmental justice and provides a structured, but flexible,
        framework for conducting an environmental justice analysis.” OEJ did advise
        that they did not design the Toolkit for conducting environmental justice reviews
        of programs and policies, but for conducting site-specific activities, such as
        issuing a permit.

        OECA, with OEJ, has subsequently developed its own environmental justice
        review based on the Toolkit’s Environmental Justice Indicators Framework.
        According to the Environmental Justice Smart Enforcement Assessment Tool
        (EJSEAT) guidance document, OECA uses a set of indicators to:

           (1) Proactively identify, in a consistent manner, potential disproportionately
               high and adversely affected areas (“Areas with Potential Environmental
               Justice Concerns”) to assist OECA in making fair and efficient resource
               deployment decisions, including targeting inspections; and

           (2) Analyze these areas, in a consistent manner, based on demographic (race
               and income) information, to evaluate and measure how OECA’s actions
               affect areas with minority and/or low-income populations.

        Thus, EJSEAT serves as both a tool for integrating environmental justice into
        OECA’s work, as well as a methodology for reviewing EPA’s compliance
        program with respect to environmental justice. OEJ envisions that other
        program/regional offices will develop similar guidance documents for performing
        environmental justice reviews. EPA advised that some regions and program
        offices, such as the Office of Water, have stated in the draft Strategic Plan and in
        their respective Fiscal Year 2006 action plans that they will establish
        methodologies, like EJSEAT, which identify areas with potential environmental
        justice concerns and assess progress.

Recommendations
        We recommend that the Deputy Administrator:

           (1) Require the Agency’s program and regional offices to identify which
               programs, policies, and activities need environmental justice reviews and
               require these offices to establish a plan to complete the necessary reviews.




                                          7

            (2) Ensure that environmental justice reviews determine whether the
                programs, policies, and activities may have a disproportionately high and
                adverse health or environmental impact on minority and low-income
                populations.

            (3) Require each program and regional office to develop, with the assistance
                of OEJ, specific environmental justice review guidance, which includes
                protocols, a framework, or directions for conducting environmental justice
                reviews.

            (4) Designate a responsible office to (a) compile the results of the
                environmental justice reviews, and (b) recommend appropriate actions to
                review findings and make recommendations to the decisionmaking
                office’s senior leadership.

Agency Response and OIG Evaluation
         The Agency agreed with our recommendations. We reviewed the Agency’s
         comments to the draft report and made changes to the final report where
         appropriate. Appendix B provides the full text of the Agency’s response.




                                         8

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1      Action Official         Date      Amount      Amount

     1        7     Require the Agency’s program and regional offices         O        Deputy Administrator      TBD
                    to identify which programs, policies, and activities
                    need environmental justice reviews and require
                    these offices to establish a plan to complete the
                    necessary reviews.

     2        8     Ensure that environmental justice reviews conclude        O        Deputy Administrator      TBD
                    whether the programs, policies, and activities have
                    a disproportionately high or adverse health or
                    environmental impact on minority and low-income
                    populations.

     3        8     Require each office to develop, with the assistance       O        Deputy Administrator      TBD
                    of the Office of Environmental Justice, specific
                    environmental justice review guidance, which
                    includes protocols, a framework, or directions for
                    program and regional offices.

     4        8     Designate a responsible office to (a) compile the         O        Deputy Administrator      TBD
                    results of the environmental justice reviews, and (b)
                    recommend appropriate actions to address
                    findings.


1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  9

                                                                             Appendix A

   Regional and Program Office Survey Respondents

                             Regions                         Program Offices

Respondents                      1             Office of Solid Waste and Emergency Response
                                 4                         Office of Air and Radiation
                                 5                               Office of Water
                                 8                   Office of Research and Development
                                 9                         Office of the Administrator
Total                       5 (out of 10)                         5 (out of 13)

Agency-wide Response Rate                           10 (out of 23, or 43%)




                                            10 

                                                                                     Appendix B

                                 Agency Response

MEMORANDUM

SUBJECT:       Response to Draft Evaluation Report 2004-000929, “EPA Needs to Conduct
               Environmental Justice Reviews of Its Programs, Policies, and Activities”

FROM:          Granta Y. Nakayama
               Assistant Administrator

TO:            Jeffrey Harris
               Director for Program Evaluation, Cross-Media Issues
               Office of Inspector General

       The United States Environmental Protection Agency (EPA) appreciates the opportunity to
comment on the Office of Inspector General’s (OIG) Draft Evaluation Report 2004-000929, “EPA
Needs to Conduct Environmental Justice Reviews of Its Programs, Policies, and Activities.”(Draft
Report). I am sending this memorandum on behalf of EPA Deputy Administrator Marcus Peacock.
EPA believes that the Draft Report sets forth cogent recommendations that, with some
modification, will help to strengthen EPA’s environmental justice program.

        EPA believes that the integration of environmental justice considerations into the
Agency’s decisionmaking processes represents an essential first step in making environmental
justice part of its mission, as directed by Executive Order 12898, “Federal Actions to Address
Environmental Justice in Minority Populations and Low-Income Populations” (Feb. 16, 1994).
Environmental justice program review is the next appropriate step to follow. Accordingly, the
OIG’s Draft Report is especially timely, and EPA appreciates the OIG’s efforts in this regard.

         EPA concurs, in general terms, with the OIG’s finding that, instead of conducting
environmental justice reviews, “[t]he Agency has focused on integrating environmental justice
into its programs, policies, and activities through the development of action plans from each of
the EPA program and regional offices. These action plans provide Agency staff with a strategic
instrument to ensure environmental justice considerations are integrated into all Agency
activities.” However, as noted in comments to earlier drafts, certain aspects of the Draft Report’s
research methodology and analysis can be made clear.




                                                11 

         EPA points out that, in addition to the action plans, the Agency has taken steps to
integrate environmental justice into its work. For example, EPA, for the first time, is integrating
environmental justice considerations into its Strategic Plan, which will improve the Agency’s
ability to plan, coordinate, and evaluate its environmental justice priorities. Moreover, EPA has
significantly enhanced its on-line environmental justice mapping and assessment capabilities,
which should lead to improved accountability, efficiency, and, most importantly, improved
conditions in environmentally burdened communities.

       I am attaching EPA’s comments to the Draft Report. If you have any questions regarding
the enclosed comments or any other aspect of EPA’s environmental justice program, please
contact me, or your staff may contact Barry E. Hill, Director, Office of Environmental Justice,
(202) 564-2515.

Attachment (1): 	 Response to OIG Draft Evaluation Report, “EPA Needs to Conduct
                  Environmental Justice Reviews of Its Program, Policies, and Activities




                                                 12 

Response to OIG Draft Evaluation Report, “EPA Needs to Conduct
Environmental Justice Reviews of Its Programs, Policies, and Activities”

General Comments:

While EPA finds the Draft Report recommendations to be quite useful, certain aspects, such as
the “Scope and Methodology” Section should be made clearer and more understandable.
Specifically, EPA recommends the following:

   1. Identify Data and Analysis Limitations and Explain Survey Methodology
                                                                                                 See OIG
   The “Scope and Methodology” Section should include an explanation of the data and            Comment in
   analysis limitations of the Draft Report, given that only half of the Agency’s regional      Appendix C
   offices (5/10) responded to the OIG’s survey. (Draft Report Page 3). This section              Note 1
   should also explain the analytical basis for: (1) aggregating the results from the
   regional and the program offices, which are entities with very different institutional roles
   within EPA and have different needs (e.g., programmatic policy operations versus more
   location-specific functions); and (2) counting, as separate responses, the submissions of
   different offices located within a single region or program office. A discussion of the Draft
   Report’s limitations would help the reader know whether the data and analysis should be
   considered representative of conditions and/or needs Agency-wide. Including raw or
   tabularized data in an appendix to the Final Report would also increase the transparency of
   the evaluation’s data and analysis.

   2. Distinguish between Categories of Environmental Justice Reviews                              See OIG
   EPA reiterates its previous recommendation that the survey and analysis of results            Comment in
   should distinguish between “environmental justice assessments,” “environmental                Appendix C
   justice reviews,” and “environmental justice program evaluations.” The Draft                     Note 2
   Report’s interchangeable use of these terms (Draft Report Page 3) leads to confusion
   and potentially misleading conclusions. For example, while OECA agrees that the “[t]here is
   no Agency-wide guidance in place on environmental justice program or policy review,” it is
   incorrect to state that there exists “no established parameters or protocols to follow in
   conducting an environmental justice review.” (Draft Report Page 6). As noted in the Draft
   Report, the Toolkit for Assessing Potential Allegations of Environmental Injustice provides
   guidance “for conducting site-specific activities, such as issuing a permit . . . [and] provides a
   structured, but flexible, framework for conducting an environmental justice analysis.” Id.

Specific Comments:

   1. Page 2, first full paragraph. The first sentence should read, “However, neither the      See OIG
      2001 nor the 2005 memoranda . . ..”                                                     Comment in
                                                                                              Appendix C
                                                                                                Note 3




                                               13 

2.	 Page 2, bullet #6. The sentence should be revised for clarity: “Developed in-       See OIG
    person and on-line training for EPA staff responsible for writing permits under    Comment in
    the Resource Conservation and Recovery Act and the Clean Air Act.”                 Appendix C
                                                                                         Note 4


3.	 Page 3, “Scope of Methodology,” paragraph 1. As noted above in General              See OIG
    Comment 1, identify the Draft Report’s data and analytical limitations and         Comment in
    explain the survey methodology with greater clarity.                               Appendix C
                                                                                         Note 5


4.	 Page 3, “Scope of Methodology,” paragraph 2, sentence 2. The sentence should        See OIG
    be modified, as follows: “The Office of Inspector General designed the sampling    Comment in
                                                                                       Appendix C
    process after consultation with OECA and OEJ.”                                       Note 6


5.	 Page 5, paragraph 3, sentence 1. The sentence should be modified, as follows, to    See OIG
    accurately show the range of mechanisms that EPA has used to integrate             Comment in
    environmental justice into its programs, policies, and activities:                 Appendix C
                                                                                         Note 7
   “The Agency has focused on integrating environmental justice into its programs,
   policies, and activities through planning and budgeting processes, development of on-
   line assessment tools, training courses, policy guidance documents, and action plans,
   which are submitted by each EPA program and regional offices, as well as through
   OEJ’s participation in the regulatory rulemaking process as an ex officio member of
   the Regulatory Steering Committee.


6.	 Page 6, paragraph 3, sentence 2. The sentence should be modified as follows to       See OIG
                                                                                        Comment in
    clarify that policy exists with respect to environmental justice assessments. In    Appendix C
    addition, consistent with Recommendation #3, page 7, the sentence should be           Note 8
    modified to state that the regions and program offices, rather than EPA, as a
    whole, have not established guidance on environmental justice program evaluation or
    policy review:

   “The regions and program offices have not established guidance on environmental
   justice program or policy review. Further, except for the Toolkit, which addresses site
   specific assessments, and for assessments conducted under the National Environmental
   Policy Act and in the compliance assurance context, we found no established parameters
   or protocols to follow in conducting an environmental justice analysis.”




                                            14 

  7.	 Page 6, paragraph 5, sentence 2. Clarify that other program offices, such as the          See OIG
      Office of Water, and regions have stated in the draft Strategic Plan and in their        Comment in
      respective Fiscal Year 2006 Action Plans that they will establish methodologies,         Appendix C
      like EJSEAT, which identify areas with potential environmental justice concerns            Note 9
      and assess progress.


Recommendations:                                                                                See OIG
                                                                                               Comment in
  (1) Require the Agency’s program and regional offices to identify which programs, 
          Appendix C
      policies, and activities need environmental justice reviews and require these 
            Note 10
      offices to establish a plan to complete the necessary reviews. 


  EPA accepts this Recommendation without modification.

  (2) Ensure that environmental justice reviews conclude whether the programs, policies, and
      activities may have a disproportionately high or and adverse health or environmental
      impact on minority and or low-income populations.

  EPA accepts this Recommendation with modifications, as above. The inclusion of the term
  “may” provides a protective margin. The use of the conjunctions “and” and “or” have been
  conformed to track the language of Executive Order 12898.

  (3) Require each program and regional office to develop, with the assistance of the Office
      of Environmental Justice, specific environmental justice review guidance, which includes
      protocols, a framework, or direction for conducting environmental justice reviews.
      program and regional offices.

  EPA accepts this Recommendation with modifications, as above. The modifications clarify
  that each region and program office will be responsible for developing its own guidance with
  the assistance of the Office of Environmental Justice. A successful environmental justice
  review must combine expertise both in environmental justice issues and the relevant science
  surrounding a particular program and pollutant.

  (4) Designate a responsible office to (a) compile the results of the environmental justice
      reviews, and (b) recommend appropriate actions to review findings and make
      recommendations to the decisionmaking office’s senior leadership.

  EPA accepts this Recommendation with modification, as above. The modification is
  necessary to maintain existing delegations of authority and to maintain decisionmaking
  authority with the office accountable for implementing its program, or overseeing operations
  within its region.




                                              15 

                                                                               Appendix C

        OIG’s Comments on Agency’s Response

1.	 We edited the “Scope and Methodology” section to elaborate and clarify our discussion
    on the data and analysis used in our report. (See Page 3)

2.	 As suggested, we edited the report section on categories of environmental justice reviews
    to clarify our position. (See Pages 3 and 7)

3.	 We made the correction. (See Page 2)

4.	 We revised the sentence as suggested. (See Page 2)

5.	 See the first comment above.

6.	 We made the suggested modification. (See Page 3)

7.	 We modified the sentence by referring to the Chapter 1 “Background” section of our
    report which provides this information. (See Page 6)

8.	 We did not change the report since existing statements provide the same information.

9.	 We added the suggested statement to the report. (See Page 8)

10. We added the suggested word changes and additional information to our
    recommendations. (See Page 8)




                                           16 

                                                                             Appendix D

                                   Distribution

Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Enforcement and Compliance Assurance
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                           17 

